<html>
<title> - S. 159 - A BILL TO ELEVATE THE ENVIRONMENTAL PROTECTION AGENCY TO A CABINET-LEVEL DEPARTMENT</title>
<body><pre>[Senate Hearing 107-157]
[From the U.S. Government Printing Office]



.                                                       S. Hrg. 107-157
  S. 159--A BILL TO ELEVATE THE ENVIRONMENTAL PROTECTION AGENCY TO A 
                        CABINET-LEVEL DEPARTMENT
=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   on

                                 S. 159

   TO ELEVATE THE ENVIRONMENTAL PROTECTION AGENCY TO A CABINET LEVEL 
    DEPARTMENT, TO REDESIGNATE THE ENVIRONMENTAL PROTECTION AGENCY AS THE 
    DEPARTMENT OF ENVIRONMENTAL PROTECTION AFFAIRS, AND FOR OTHER PURPOSES

                               __________

                             JULY 24, 2001
                               __________

      Printed for the use of the Committee on Governmental Affairs









                        U.S. GOVERNMENT PRINTING OFFICE
75-478                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001












                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 PETE V. DOMENICI, New Mexico
THOMAS R. CARPER, Delaware           THAD COCHRAN, Mississippi
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky
           Joyce A. Rechtschaffen, Staff Director and Counsel
                       Susan E. Propper, Counsel
         Hannah S. Sistare, Minority Staff Director and Counsel
                  Paul R. Noe, Minority Senior Counsel
                     Darla D. Cassell, Chief Clerk










                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     3
    Senator Voinovich............................................     4
    Senator Thompson.............................................    13
    Senator Stevens..............................................    15
    Senator Carper...............................................    17

                               WITNESSES
                         Tuesday, July 24, 2001

Hon. Barbara Boxer, a U.S. Senator from the State of California..     5
Hon. Sherwood L. Boehlert, a Representative in Congress from the 
  State of New York..............................................     7
Hon. Christine Todd Whitman, Administrator, U.S. Environmental 
  Protection Agency..............................................     9
Hon. Carol M. Browner, Former Administrator, U.S. Environmental 
  Protection Agency..............................................    20
Hon. William K. Reilly, Former Administrator, U.S. Environmental 
  Protection Agency..............................................    22
Hon. E. Donald Elliott, Former General Counsel, U.S. 
  Environmental Protection Agency................................    24

                     Alphabetical List of Witnesses

Boehlert, Hon. Sherwood L.:
    Testimony....................................................     7
    Prepared statement...........................................    42
Boxer, Hon. Barbara:
    Testimony....................................................     5
    Prepared statement...........................................    37
Browner, Hon. Carol M.:
    Testimony....................................................    20
    Prepared statement...........................................    46
Elliott, Hon. E. Donald:
    Testimony....................................................    24
    Prepared statement with an attachment........................    55
Reilly, Hon. William K.:
    Testimony....................................................    22
    Prepared statement...........................................    48
Whitman, Hon. Christine Todd:
    Testimony....................................................     9
    Prepared statement...........................................    44

                                Appendix

Hon. Robert Smith, a U.S. Senator from the State of New 
  Hampshire, prepared statement..................................    65
Copy of S. 159...................................................    68














  S. 159--A BILL TO ELEVATE THE ENVIRONMENTAL PROTECTION AGENCY TO A 
                        CABINET-LEVEL DEPARTMENT

                              ----------                              

                         TUESDAY, JULY 24, 2001

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
SD-342, Dirksen Senate Office Building, Hon. Joseph Lieberman, 
Chairman of the Committee, presiding.
    Present: Senators Lieberman, Collins, Voinovich, Thompson, 
Stevens, and Carper.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning and welcome to this 
hearing today on S. 159, a bill introduced by two of our 
colleagues, Senator Barbara Boxer of California and Senator 
Susan Collins of Maine, who I am pleased to say is serving as 
the Ranking Member for this hearing. I apologize to all in 
attendance. I am suffering from a summer cold, undoubtedly 
aggravated by air pollution, which would undoubtedly be 
alleviated by the elevation of EPA to cabinet status. So I 
should probably start my opening statement there.
    I have been a Member of this Committee since I came to the 
Congress in 1989, and we have twice held hearings in 1990 and 
1993 on raising EPA to the cabinet. I have been an enthusiastic 
supporter of this legislation and was generally disappointed 
when it failed to be enacted. Today, I continue to believe 
strongly that EPA should be made a cabinet department. The time 
is really right for our Nation to say that we hold protection 
of our environment so high that we want to put it on a par with 
other agencies that have cabinet status, such as those that 
defend our national security or work to improve the quality of 
our education system. In fact, I do think that if we elevate 
EPA to cabinet status, we will be reflecting what has become an 
expression, a consensus expression, of our national values.
    We have come a long way since the 1970's and the first 
Earth Day, from the creating of EPA by President Nixon in 1970, 
driven by the vision and the insights originally then, that we 
were acting with disrespect toward our environment, and while 
there was a time in which we thought that would have no 
consequences, it obviously was having serious consequences on 
the state of our magnificent natural resources in this country, 
but also on our own health, as a result of pollutants in the 
air and in the water.
    That led to the first generation of environmental 
protection laws at the Federal and State level, which, in turn, 
as occasionally happens in the history of civilization, the law 
reflected the value that Americans placed on the protection of 
the environment, but it also broadened the acceptance of those 
values such that we now have a very wide consensus in our 
society that cuts across every demographic and certainly every 
political describer, in favor of environmental protection. It 
seems to me that conferring cabinet status on EPA reflects that 
very profound and widely held American value of environmental 
protection.
    Second, I would say that EPA's status ought to be elevated 
as a way of making sure that the reality follows the status and 
the symbol, which is to say that environmental concerns are 
put, structurally and every other way, on an equal par with 
other concerns with which they occasionally confront. I am 
thinking of the recent California power crisis, but generally 
the concern about meeting our energy needs, which so often 
impacts questions of environmental protection. So the bottom 
line is, I think, we need an EPA that has equal standing in the 
cabinet and in our government with, for instance, the 
Department of Energy in developing a balanced policy to meet 
our energy needs.
    There are other times when EPA needs to work with the 
Department of Defense, for instance, over toxic waste sites on 
military bases; or negotiate with the Department of Agriculture 
about the use of chemicals on farms. I think as a matter of 
status as well as reality, EPA ought to start those discussions 
and negotiations, which are important, on a level playing 
field.
    Finally, I do think that elevating EPA to cabinet status 
would help it be more effective in dealing with matters of the 
environment on the international stage. Obviously, problems 
associated with the quality of our air, land, and water do not 
stop at the border. There is a global dimension to our most 
serious environmental concerns. It is a fact that as far as we 
could determine that of 198 nations in the world today, only 
10, unfortunately including the United States, do not maintain 
a cabinet department or ministry devoted to the environment. So 
it is time for us to get with it. I, for the moment, resisted, 
but I cannot any longer resist one of those inevitable 
senatorial lines, which is, that puts us in the company of 
States like Libya and Myanmar. OK, I have done it.
    One of the great challenges that we have, that both of the 
bills that have been put forward, both S. 159 and Congressman 
Boehlert's bill in the House, are, generally speaking, 
straight-ahead bills that deal with structure. One of the 
problems that has affected previous attempts to raise EPA to 
cabinet level is a lack of discipline in the Congress itself, 
which is to see these bills as an opportunity to attach any and 
all environmental riders, about whatever happens to be 
concerning a particular member of Congress at that particular 
time. That is the greatest threat to the enactment of this 
bill, and I hope that together, certainly across party lines as 
reflected in the sponsors of this bill, that we can work to say 
to our colleagues on both sides of the aisle, we know you are 
concerned about that, wait, there will be another day. Let's 
just get this bill passed and put EPA where it belongs, which 
is into the cabinet. I am delighted that--Senator Collins has 
jumped a few seats and pushed Senator Thompson further away 
from me.
    Senator Thompson. Mr. Chairman, do you get the impression I 
may be going in the wrong direction? I do not know.
    Chairman Lieberman. It is good to see you, Fred.
    Senator Collins, I look forward to your opening statement 
now.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. I would be happy to defer to Senator 
Thompson if he wants to say some comments. Let me begin by 
thanking Senator Lieberman for convening today's hearing and 
for recognizing the importance of elevating EPA to cabinet-
level status. The Chairman has a deep commitment and an 
appreciation for environmental protection, a commitment that I 
share. In fact, we frequently had the opportunity to work 
together on environmental initiatives. We are co-sponsors of 
many of the same bills. I want to thank him for convening 
today's hearing and also for selecting the Boxer-Collins bill 
for the Committee's consideration.
    I would also like to extend my gratitude to Senator 
Thompson. He knows how much this issue means to me and with his 
customary grace, has allowed me to serve in his stead as 
Ranking Member for today's hearing. Senator Thompson has always 
done a terrific job in leading this Committee and I sincerely 
hope that I can fill his shoes today. I mean that 
metaphorically, of course.
    Perhaps most important, I would like to recognize our two 
colleagues, Senator Boxer and our colleague from the House 
side, Congressman Boehlert, for their leadership on this 
important issue. I am very pleased to join Senator Boxer, the 
architect of the Senate bill, in bringing S. 159 before the 
Committee, and I look forward to working with her closely to 
ensure that this legislation becomes law.
    There are many good reasons to elevate EPA to cabinet 
status. We will hear about many of these reasons today, so I am 
not going to go through a full litany now. Instead, let me just 
say why I believe this bill is so important. In a sentence, it 
comes down to ensuring that the environmental implications are 
front and center when decisions are made by this or any other 
administration. Elevating the EPA to cabinet-level status will 
give the agency the status, the resources and the voice to do a 
better job for the environment and our economy.
    In order to achieve the cleanest environment in the most 
efficient manner possible, today's problems require innovative 
solutions that span State and international boundaries. Let me 
cite just one example that is a very important issue in the 
State of Maine, and that is mercury pollution. In Maine, every 
lake, river, and stream is subject to a State mercury advisory 
warning of the health risks for pregnant women of consuming 
fish from these waters. However, much of the mercury originates 
from outside of the State of Maine and a significant fraction 
comes from beyond the borders of the United States. To address 
problems such as these, EPA will need a strong relationship 
with the Secretary of State and with other members of the 
President's cabinet. The EPA will need ready access to the 
President and EPA will need to have the best possible people to 
devise innovative and flexible solutions.
    S. 159 will help EPA achieve those goals. In short, 
elevating EPA to cabinet level will help the agency acquire the 
resources necessary and command the attention needed to do the 
best possible job of protecting human health and preserving our 
environment. I would note that Congress has tried many times 
before to elevate EPA to cabinet-level status. The congressman 
and I were talking before the hearing, and he told me he had 
been working on this issue since 1988, I think it was. I am 
hopeful that this time, we will finally be successful.
    Each time in the past the effort has failed, not from 
opposition to the idea itself, but as a result of extraneous 
baggage that was added to each effort and eventually sunk each 
effort. Each of us has criticisms of the EPA and can think of 
mistakes that the EPA has made, and of ways in which Congress 
could restructure the agency to make it work better. The 
trouble is that it is very difficult to achieve consensus on 
these ancillary issues.
    So what I hope is that we can concentrate on the issue 
before us today, and that we can all agree that EPA should be 
included in the President's cabinet. I would like to hear from 
my colleagues on both sides of the aisle on other ways that we 
can improve the EPA and make it more effective. Let's talk 
about improvements and think about additional ways as we move 
forward, but let's not get so mired down in other issues that 
we are unable to get this important initiative enacted.
    S. 159 and the House bill stand on their own merits and 
they deserve to be passed and signed into law. I hope that our 
colleagues will join us in doing what many previous Congresses 
have tried to do before, but failed. I hope that we will 
elevate EPA to cabinet-level status.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins, for an 
excellent statement and for your kind words. It has been the 
practice of the Committee just to have the Chairman and Ranking 
Member make opening statements, but seeing Senator Thompson 
over there, I wonder if either Senator Voinovich or Senator 
Thompson would like to say a word or two before we go to our 
witnesses.
    Senator Thompson. Thank you, Mr. Chairman. I will wait for 
the questioning round to make any comments. Thank you.
    Chairman Lieberman. Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. I just want to say that I am very 
supportive of this legislation and would hope to be included as 
a co-sponsor of the legislation. There is no question that EPA 
has an enormous impact on our Nation's competitive position in 
the world marketplace, on our national security, our foreign 
policy, and it permeates many aspects of the Federal 
Government, and I believe that it is appropriate that it now 
join the cabinet officially, so that it can have more influence 
and be more a part of the team.
    Chairman Lieberman. Thanks, Senator Voinovich.
    I am delighted to welcome our colleagues today. Senator 
Boxer, thanks so much for your leadership in this matter. I am 
glad we could take it to an early hearing, and I hope we can 
report this bill out soon and see if we can get it on the floor 
in the fall. I look forward to hearing from you now.

  TESTIMONY OF HON. BARBARA BOXER,\1\ A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Boxer. Thank you so much, Senator. Mr. Chairman, 
Senator Collins, Senator Thompson, and Senator Voinovich, I 
have had the pleasure of working with Senator Collins and 
Senator Voinovich on this bill. Senator Voinovich is tough to 
get on a bill, because he really thinks it through, and his 
announcement today that he will be a co-sponsor is very 
exciting to me. I think it adds a great balance to our bill, 
which is co-sponsored by Republicans, Democrats and one 
independent, so we are very happy.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Boxer appears in the Appendix 
on page 37.
---------------------------------------------------------------------------
    Before I get into my testimony, and I will go through it 
quickly for you, I want you to know that the bill that I 
authored is really based on a bill that was introduced by the 
wonderful Senator John Glenn back in 1993, in the 103rd 
Congress, but as has been stated by you, Mr. Chairman, and by 
Senator Collins, that effort was weighted down, and even though 
it got out of this Committee in a bipartisan way, we lost the 
fight. I hope we can stick together and work with both leaders 
to make sure this bill stays clean, and if there is anything in 
this bill of Senator Collins' and mine, and Senator Voinovich's 
now, that you feel, Mr. Chairman, or anyone feels weighs it 
down, we will be glad to take a look at it.
    But essentially what we do in the bill is we take the way 
the EPA is running right now and we put that into the statute. 
We do not make judgments about it. We just say the assistant 
secretary shall be put into place, etc. We add nothing new in 
terms of the statute. Mr. Chairman, just to let you know how 
much this means to me, on the first working day of this new 
Congress, I introduced a bill to address the energy crisis in 
California. On the second day, I introduced this bill. So it 
ranks right up there with things that matter to me, and it 
matters to me because--I think Senator Collins said it well, 
``We need a place at the table for the environment.''
    There are always arguments about it. Put it at the table 
and let's work together so we can make progress. I think that 
is the best way. You are going to hear from former EPA 
Secretary Reilly, and we came over on the plane together, and I 
do not want to steal anything from his testimony, but I think 
he will tell you how important the work of the EPA is around 
the world, and how much it means to people around the world who 
is actually heading the EPA, and I think that argues for 
cabinet-level position and he will tell it to you in a much 
better way than I can.
    As we all know, the EPA was created by President Nixon over 
30 years ago, in part because there were so many problems in 
our environment. The President felt we needed to give more 
attention to those problems. The waters were too polluted to 
drink. The air was getting too dirty to breathe, and we 
realized then very clearly that clean air, waste and water 
pollution do not respect State boundaries, that, in fact, this 
is a national issue.
    As you look at the history of the EPA, I think it has 
played a critical role in ensuring that all Americans enjoy the 
same basic level of public health and environmental protection, 
and at the same time, the world has changed a great deal. In 
many ways, the world is catching up with our recognition of 
these issues, again arguing for moving toward this cabinet-
level position.
    So I do not want to put unnecessary words on the table now, 
because I sense there is a good deal to support and one thing I 
know is if you have a lot of support, do not say too many 
things. So I ask unanimous consent that all my words be placed 
in the record that are in this statement, and I would simply 
say that what we do is we codify what is really happening at 
the EPA, and I will add a couple of countries to what Senator 
Lieberman said.
    The wonderful Senate method here of arguing: According to 
CRS, 198 countries were surveyed; only 10 do not afford cabinet 
or ministerial status to their highest environmental official. 
So we do, in fact, by virtue of having no cabinet-level 
position, we join nations such as Libya, Yemen, Qatar and 
Uzbekistan in failing to grant permanent status to our EPA. We 
can change all this. I think, if you will, the ingredients are 
here to change it.
    Mr. Chairman, with you as the Chairman and Senator Thompson 
as the Ranking Member, with Senator Collins and Senator 
Voinovich joining in this effort, I just see only good things, 
and again I want to particularly thank Senator Collins for 
coming out there. She could have held out for a different bill. 
She read the bill. She felt it was good, and we will work with 
you to change it, amend it in whatever way you see fit, Mr. 
Chairman and Members of the Committee.
    Thank you very much.
    Chairman Lieberman. Thank you, Senator Boxer, for an 
excellent statement. We will certainly print the statement in 
full in the record, and thanks to you and Senator Collins for 
your leadership on this. If you have to depart, we certainly 
understand.
    Senator Boxer. Yes, we have a hearing on another subject 
that is a favorite of yours, missile defense.
    Chairman Lieberman. Oh, yes.
    Senator Boxer. So I will go over to the Foreign Relations 
Committee.
    Senator Thompson. At least we are keeping the Chairman 
here.
    Chairman Lieberman. I think you may want to keep Senator 
Boxer here. [Laughter.]
    Senator Boxer. I am going to leave this in your good hands. 
Thank you very much.
    Chairman Lieberman. Thank you. OK. Thanks very much.
    Congressman Boehlert, you have been an extraordinary leader 
on matters of environmental protection and really have created 
a bridge in the House time and time again, when it has not been 
easy, I know, politically, although I honestly believe, if I 
can take Connecticut as a measure and my occasional trips 
around the country, particularly last fall, I do not think 
there is a partisan divide on matters of environmental 
protection at all, once you get out and talk to people. I 
always say I can go into a room in Connecticut and, on 
environmental protection, I cannot pick out who the Republicans 
and Democrats are. They are pretty much people of like minds. 
So you have really stood for that, as others have here on the 
panel with me. I welcome you and thank you once again for your 
leadership in this matter.

TESTIMONY OF HON. SHERWOOD L. BOEHLERT,\1\ A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Boehlert. Thank you very much, Mr. Chairman. Senators, 
I really appreciate the courtesy you are extending to me to 
allow me to testify, and I will extend to you the same 
courtesy. I will do you a favor. I will say the four words that 
you most welcome: I will be brief. That challenge can be real 
difficult, given the importance of the subject and my long and 
sometimes tortuous legislative experience with this effort, 
dating back to 1988, when, in anticipation of your arrival the 
next year, then-Congressman Jim Florio and I first introduced 
the elevation bill.
---------------------------------------------------------------------------
    \1\ The prepared statement of Representative Boehlert appears in 
the Appendix on page 42.
---------------------------------------------------------------------------
    Chairman Lieberman. Very far-sighted of you.
    Mr. Boehlert. But, alas, it did not succeed, so we are 
still at it. You know and the Senators know the importance of 
elevating EPA, not just to Senator Boxer and me, but to the 
administration, the previous administration, and the Nation as 
a whole. So I will get right to the point, and actually there 
are three points. The first point is Congress should elevate 
EPA to the cabinet-level status it deserves and needs. I will 
not play a game of trivial pursuits with you or Senator Boxer, 
but I notice you both neglected to mention that Monaco also is 
in the same boat.
    Chairman Lieberman. My apologies.
    Mr. Boehlert. All right. [Laughter.]
    Every major country in the world, with apologies to Monaco 
and Yemen and Uzbekistan, all the others, the nine, every major 
country in the world has accorded cabinet-level status to the 
top environmental agency, and it is about time we did the same 
thing. Today, more than ever before, we need to make EPA an 
official member by statute of the President's cabinet. This has 
nothing to do with the stature or capability of governor--soon 
to be secretary--Ms. Whitman, who I think is doing an 
outstanding job. Instead, it is a question of timing and 
national and global conditions. Environmental issues are 
becoming more complex, more international, and more global. 
Climate change, widespread toxic pollution and invasive species 
are obvious examples.
    The House Science Committee, which I am privileged to 
chair, is looking precisely at such issues. There are also 
growing complexities involving natural resource damages and 
environmental challenges among many Federal agencies, such as 
the Department of Energy and the Department of Defense. I think 
it is important that our top environmentalist deal with the 
Secretary of Energy and the Secretary of Defense on an equal 
standing.
    Mr. Chairman, the stars may have finally aligned to make 
EPA elevation a reality, and as Chairman of the Science 
Committee, which has jurisdiction over NASA, I will do all of 
my power to ensure that the stars stay properly aligned. As 
Chairman of this Committee, you are in a position to do all the 
hard work and to help get the bill to the President in an 
acceptable form. The second point I wish to make, and you have 
said it well, is do not be tempted by side issues or 
diversions. We need discipline. Based on my previous 
experiences with cabinet-level legislation, I cannot over-
emphasize the importance of staying focused. Let's not forget 
the lessons of 1993 and 1994, when elevation bills addressed 
wide-ranging and controversial issues and became magnets for 
further controversy. The effort ultimately failed.
    Republican, Democrats, conservatives, and liberals alike, 
they all recognized what all of us should recognize today, only 
a straightforward, clean elevation bill can make it through the 
process. The third point is that S. 159 and H.R. 2438 are both 
on the right track. Both are bipartisan, excellent bills, 
although I must say the Boehlert-Borski bill is a little more 
excellent than S. 159. In all seriousness, Mr. Chairman, there 
is not a large difference between the two bills. Both bills can 
be called clean, although S. 159 includes more detail in 
housekeeping, findings, and related provisions. The 25-page 
bill includes several provisions that some may question the 
need for or view as new grants of authority--for example, non-
delegation or international responsibilities--or they will 
argue they should trigger multiple referrals to other 
committees.
    The five-page Boehlert-Borski bill is an attempt to cover 
the bare minimum of housekeeping and conforming changes to get 
the job done. I trust you will find an appropriate middle 
ground, keeping in mind that some provisions, no matter how 
legitimate in their own right, may provoke needless or 
mischievous debate.
    Thank you again, Mr. Chairman, and Senator Collins, Senator 
Thompson, Senator Stevens, for the courtesy of allowing me to 
participate in this most important hearing. I hope a markup of 
a clean, bipartisan bill will follow very soon. You and I, Mr. 
Chairman, have worked together on many important environmental 
issues over the years, ranging from multi-pollutant controls--
let's hope we get them this year, finally, under the Clean Air 
Act. Superfund reform, that should be on the front burner, 
too--restoration of Long Island Sound. I am confident that with 
your help, the support of the administration, and the 
bipartisan teamwork of Boxer and Collins and Boehlert and 
Borski, and we want to add Lieberman to that list, we can make 
this important effort a complete success.
    Let me close, Mr. Chairman, by saying people often say to 
me, as I am sure this happens to Senator Collins, ``What do you 
get so excited about the environment for?'' We live in a town 
that takes a poll every nanosecond, and in every poll, when the 
American public is asked an open-ended question, what concerns 
you most, they say the economy, health-care delivery, 
education. And so the doubters say, ``Look at this, Boehlert, 
it is way down at number 25, the environment. Why is that?'' 
And I say, ``That is easy to explain. The American people do 
not think we are going to take leave of our senses and undo a 
quarter-century of progress, with the Clean Air Act, the Clean 
Water Act, the Endangered Species Act.''
    Let's add this to that list. This is very important for all 
the right reasons, and I appreciate your allowing me this 
courtesy, and I will be brief, as I said at the beginning.
    Chairman Lieberman. Very well said. Thank you. If you ask 
on those polls, as you know, do you think the government should 
be playing an active role in protecting the environment, the 
numbers go way off the charts.
    Mr. Boehlert. The other thing I point out, let somebody get 
up on the floor of the Senate or the House and propose 
something that is going to do damage to the environment, and, 
quite frankly, all hell breaks loose. Our faxes are on 
overdrive. The phones start ringing. The letters come in. This 
is a very important issue. The American people expect us to 
protect the air we breathe and water we drink and food we eat, 
and the Environmental Protection Agency is a very important 
steward.
    Chairman Lieberman. Amen. I do not have any questions. Any 
of the panel? Congressman, thanks a lot. Persistence is 
sometimes rewarded with success here, and this ought to be the 
year.
    Mr. Boehlert. Thank you very much.
    Chairman Lieberman. We look forward to working with you. 
You have been great. Our next witness on our second panel will 
be the Hon. Christine Todd Whitman, Administrator of the 
Environmental Protection Agency. Thank you so much for being 
here.
    Ms. Whitman. A pleasure.
    Chairman Lieberman. We look forward to your testimony.

  TESTIMONY OF HON. CHRISTINE TODD WHITMAN,\1\ ADMINISTRATOR, 
              U.S. ENVIRONMENTAL PROTECTION AGENCY

    Ms. Whitman. It is a pleasure to appear before you, and 
thank you very much for this opportunity. This is a topic that 
is of obvious importance to the environment, and that is really 
why I am here in support of these efforts, of the two bills, 
particularly in this instance the Boxer-Collins bill that is 
being considered.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Whitman appears in the Appendix 
on page 44.
---------------------------------------------------------------------------
    When the Environmental Protection Agency was created in 
1970 by Richard Nixon, it was a combination of 10 different 
units from five departments and agencies. In a message to the 
Congress, President Nixon submitted his reasoning for the 
reorganization plan that would establish the EPA, and at that 
time, he said, ``As concern with the conditions of our physical 
environment have intensified, it has become increasingly clear 
that only by reorganizing our Federal efforts can we 
effectively ensure the protection, development and advancement 
of the total environment.'' This statement still rings true, I 
believe, more than 30 years later.
    The environment continues to gain prominence and is 
routinely ranked among the public's most important national 
concerns, as we have heard from you, Senator, and from 
Congressman Boehlert. Without an organic statute of its own, 
there continues to be a need for an institutional framework to 
protect the environment that is equal in scope and significance 
to the pervasive nature of this issue. Establishing EPA as a 
cabinet department is not a new idea, again something that has 
been pointed out time and time again. The first bill to elevate 
EPA to cabinet-status level was introduced in the Senate in 
June 1988, and since that time a dozen similar proposals have 
followed.
    Former President Bush was the first President to support 
elevating the EPA to cabinet level, mentioning it in his State 
of the Union address more than a decade ago, and inviting then-
Administrator Reilly to attend cabinet meetings. President 
Clinton and President George W. Bush have followed suit with 
both Presidential support for the legislation and with a seat 
at the cabinet table for the administrator of the Environmental 
Protection Agency. Without legislation that codifies these 
practices, however, there is no guarantee that future 
administrations will do the same and accord the same status.
    The mission of the EPA is vital to all of our lives. The 
actions of this agency protect our environment and the public 
health by ensuring the most basic of life's necessities: Clean 
air to breathe and safe water to drink. In the short history of 
this agency, its work has helped transform the way Americans 
view the environment, planting in the American consciousness a 
clear sense of environmental stewardship and its importance. 
The EPA has helped underscore the universal agreement that our 
natural resources are valuable, not just for economic 
prosperity, but for a sustained quality of life.
    No longer do we debate whether or not to act to protect the 
environment, rather now our discussions are about how we can 
keep America green while continuing to grow our economy. The 
EPA is a natural fit among other cabinet-level departments. Our 
mission, to protect human health and safeguard the environment, 
both complements and contributes to the overall service of the 
cabinet. Already I will say that I have found my participation 
at the cabinet level helpful in navigating many of the 
important issues that overlap between and amongst the work of 
the EPA and the other departments, including, as has already 
been mentioned, Energy, Agriculture, Interior, Housing and 
Labor. Quite frankly, I cannot think of a department that the 
EPA does not interact with.
    I would consider it vital to the work of future 
administrators and vital to our country to ensure similar 
cooperation and participation in the future. The time has come 
to establish the EPA as a full member of the cabinet, and doing 
so would be consistent with the observation of State 
governments, and as well as our international counterparts. All 
of you have mentioned the other nations who have elevated their 
environmental protection to cabinet level. As Governor of New 
Jersey, I will tell you I felt it very important to have my 
Secretary of the Environmental Protection Agency as part of my 
cabinet, and I find it instructive that all but five States of 
those that have cabinets have, in fact, elevated their 
environmental agency to cabinet status.
    As President Bush calls for increased cooperation between 
Federal environmental regulators and State and local 
governments, it is appropriate, I believe, to follow their 
leadership on this issue. Further, as has been mentioned over 
and over, the environment continues to play a central role in 
international relations. This legislation would bring the 
United States on a par with the rest of the G-8 and more than 
60 others by establishing a Secretary of the Environment. I am 
pleased that Congress supports this important step. Both the 
Boxer-Collins bill, S. 159, and the Boehlert-Borski bill, H.R. 
2438, would elevate EPA to cabinet status and both provide for 
the orderly transfer of responsibilities from the agency to a 
department.
    Moreover, both bills are clean bills, in that they exclude 
extraneous policy issues that in the past have derailed the 
legislative process, to establish a Department of the 
Environment. While the Boxer-Collins bill is more prescriptive, 
technical changes are easily made. It is nothing that is a 
show-stopper, and I believe that the Boehlert-Borski bill 
provides the agency with the flexibility that it needs to 
ensure that the transition to cabinet status goes smoothly and 
as efficiently as possible.
    The justification for placing EPA in the cabinet is 
compelling. Creating a Department of the Environment will 
ensure that our country prioritizes this issue today and long 
into the future. As I have said repeatedly, my aim for this 
agency is to leave America's air cleaner, water purer, and land 
better-protected than when I took office. I enjoy the full 
support of the President in the pursuit of these goals. 
Elevating the EPA to cabinet-level status will ensure that 
future administrators are able to set and achieve similar goals 
for the future. Taking this step will be a reflection of the 
importance the Congress and the President place on the 
environment in America today.
    Thank you for allowing me to appear before you, and if you 
have any questions, I would be happy to answer them.
    Chairman Lieberman. Thanks very much for that excellent 
statement and the support that you give to the proposal. Just a 
few questions; I know it is hard to evaluate in real terms, but 
I take it from your statement that you feel that elevation to 
cabinet level would enhance your standing, both among your 
international peers and perhaps even in your relationship with 
the States of the United States; is that true?
    Ms. Whitman. I think it would be very helpful. I am 
fortunate to enjoy a very good relationship with the States, 
and the international community has been very polite. But, as 
we know, particularly with the international community, they 
set high store on titles and how a particular department or 
agency is viewed by an administration. So it means more to them 
to have that cabinet-level status. It would be sending a strong 
message.
    Chairman Lieberman. I take it, also, that you agree with 
the statements that just about all of us have made, in that the 
administration will work with us as this bill goes forward to 
try to, as we have been saying, keep it clean; in other words, 
keep it focused on this, the change in status, and try to keep 
off unrelated matters.
    Ms. Whitman. Absolutely, and we are certainly willing to 
work with anyone in the Senate and the Congress that has other 
ideas, as Senator Collins indicated, to improve the work that 
we do. But for the purposes of this bill, I think it is very 
important to keep it to what it is about, raising the level to 
cabinet status.
    Chairman Lieberman. I have no further questions.
    Senator Collins.
    Senator Collins. Thank you very much, Mr. Chairman.
    First, Administrator Whitman, let me say how fortunate I 
think we are that you are leading this important agency, and it 
was a great appointment by the President and I look forward to 
continuing to work with you. I also want to thank you for your 
endorsement of our legislation and for your emphasizing that we 
do need to keep this a clean bill, so that it can pass and it 
is not weighed down by other, more contentious issues. Some of 
the critics of this legislation have expressed concerns that 
making EPA a cabinet-level department would somehow expand 
government bureaucracy or increase cost to taxpayers.
    Just for the record, could you address that criticism? Do 
you think there would be any sort of expansion of bureaucracy 
or increased cost to the taxpayer if we were to elevate EPA?
    Ms. Whitman. Both bills are clean bills, in that they just 
take what is already occurring now and put it into statute at 
cabinet level, at a department level. They do not call for 
expanded responsibilities in the sense of requiring more 
investment. I think I might get a raise, but other than that, I 
do not think there is much of a financial impact.
    Senator Collins. Well, that would be well-deserved. You 
have mentioned that you have excellent lines of communication 
with our President, but that, obviously, might not be the case 
for future EPA administrators, and one of my goals is by 
instituting the EPA at the cabinet level, I believe it would 
lead to increased communication and coordination on 
environmental issues within the Executive Branch. And it seems 
to me that having better communication and coordination, by 
instituting EPA as a cabinet-level agency, might well produce 
better decisions and perhaps even avoid duplication of efforts; 
would you agree with that?
    Ms. Whitman. Senator, I would. I would say again that, in 
this administration, and I believe my two immediate 
predecessors will testify to the same in their experience, that 
they were accorded that kind of courtesy and they were at the 
table as cabinet decisions were being made. But it is clear 
that our relationships are based on the access that you are 
given, and should a future administration not choose to have 
the Environmental Protection Agency at the table, there would 
be an enormous amount of lost opportunity; there would be 
duplication of effort, and I think it would be detrimental to 
the overall environmental health of the country.
    Senator Collins. Finally, I think you raised an excellent 
point about the status of the EPA administrator in dealing with 
your counterparts in other nations. One of the things that our 
bill does is specifically recognize the growing global role of 
environmental issues by listing the international 
responsibilities of the Secretary of Environmental Protection. 
Could you comment on some of the international challenges that 
you believe we will be facing and how it would be helpful to 
you to have the status of a cabinet secretary in dealing with 
your counterparts?
    Ms. Whitman. Well, I was able to participate in the signing 
of the Persistent Organic Pollutants Treaty recently, and 
clearly there are now many steps that we need to take to help 
enforce that and to look at what the next round of pollutants 
is, to which we need to turn our attention, and it will be 
helpful. That is definitely an international exercise. As 
Senator Stevens knows, there are enormous impacts from what 
happens in other parts of the globe on citizens of the United 
States, and we need to be involved. And certainly, as we work 
with some of our counterparts around the world, it is helpful 
to have that kind of status behind you, which tells the rest of 
the world that, yes, in fact, the administration does take this 
seriously, and when the administrator or, at that point, 
secretary, talks, they are talking with some level of authority 
behind them. We are looking at an upcoming event in 
Johannesburg in 2002, on sustainability. It is going to be a 
very comprehensive conference. It is going to be one of 
enormous importance, and it will be very helpful again to have 
the kind of status that would allow us to have the impact that 
we think is important for this country as we discuss these 
issues.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins. Senator 
Thompson.

             OPENING STATEMENT OF SENATOR THOMPSON

    Senator Thompson. Thank you very much, Mr. Chairman, and 
congratulations to you, Senator Collins, for your leadership in 
this area. I think it is an important bill. Clearly, 
environmental considerations and issues are not only national 
issues now, they are international issues. We deal with them 
here on a daily basis, whether they be in the national-
international arena or locally. We have a real big concern back 
in my State: The Smoky Mountains. All these issues converge. 
The energy issues and the environmental issues now are coming 
together, and we are going to have to make some hard decisions 
and trade-offs with regard to the pollution in State parks.
    We always point out, with due regard to my friends from New 
York, that the top of the Smokies on some days is more polluted 
than downtown New York City. So this is all, I think, a step in 
the right direction in elevating these considerations. There is 
one thing that I would like to pursue with you, though. I hear 
what everyone is saying about a clean bill and keeping it 
simple and so forth--but I think if we are going to elevate the 
EPA to a cabinet-level position, it is legitimate to ask 
whether that same set-up is necessarily one that should be 
carried over intact to the cabinet-level position. I am 
specifically referring to the role of science in the EPA's 
decisionmaking process.
    I have been somewhat concerned, and I think others have 
been too--that we sometimes get into a trade-off with the 
politics versus the science, and the politics oftentimes wins. 
We see an extraordinary number of EPA regs being overturned by 
the courts, and sometimes it is because we have neglected the 
science. We do not want to start a negative process with regard 
to this bill. I am wondering whether or not we should take the 
opportunity to institutionalize science in EPA's decisionmaking 
process here. I think it is such an integral part and the 
department is going to become more and more important. It is 
more and more important that they do what they do right.
    I know that you have undertaken some in-house initiatives 
to beef up science and economics at the EPA. Others have 
suggested that we have perhaps an assistant secretary. We have 
a chief information officer for these departments and a chief 
financial officer. What about a chief science officer? Why not 
institutionalize that? It is such an integral part and, in some 
cases, a legal requirement so perhaps it is appropriate to take 
this opportunity to ask ourselves that question. What do you 
think about that? What do you think can be done, short of a 
statutory embodiment of some kind, and what would be wrong with 
a provision in this statute that would, in some way, 
institutionalize what I think many of us think should play a 
larger role than it has in times past in the process?
    Ms. Whitman. Well, Senator, I could not agree with you more 
that science needs to be at the heart of the decisionmaking 
process at the agency, and without sound science we do not have 
the credibility we need to support the regulatory actions we 
take, and it is at the heart and must be at the heart of 
everything that we do. As you have mentioned, I have undertaken 
certain steps internally to ensure that we do start to consider 
the science up front, to ensure that it is part of the process, 
and we are institutionalizing that.
    I have no conceptual objection to having a discussion about 
the importance of science and how to ensure that it is always 
there at the forefront of decisionmaking. My concern is that we 
do not lose the objective of this bill at this time. The 
importance here is to raise the agency to cabinet level. That, 
in and of itself, I believe, brings the importance of the 
science, because that is behind the environment, to a higher 
level, and then engage, perhaps, in discussions as to whether 
there are other changes that need to be made to fine-tune the 
agency or better ensure that changes that we might recommend, 
if agreed to by that Congress, are things that want to be 
institutionalized and embodied in law or regulation. But my 
concern really is that we have seen this bill since 1988. 
Versions of this bill come through and get lost because of very 
good and important issues that needed to be discussed that got 
added to it, and every time the bill has then gone down, 
because once one thing is added, then another thing--and they 
are all important. They are all good points to be argued, but I 
just hesitate to incorporate it now, open it up now, simply 
because of the what the past history has shown us might well 
happen then to the bill itself.
    Senator Thompson. I understand that. In looking back over 
it, I know Senator Bennett had an amendment back some years ago 
that required for each major rule the cost/benefit analysis and 
risk assessment and all of that. While maybe laudatory, that is 
getting pretty far down into the weeds, and I can see why that 
would have complicated things. It looks to me like there might 
be a way of doing it that would not complicate things that 
much, nor defeat the bill. But you make a good point, and I 
understand that. My concern is, if it is something that ought 
to be done, we are losing an opportunity to do it. You know how 
it is around here. The opportunities, the windows to get things 
done, open rarely and close quickly. So that is my concern.
    You mentioned the front end of the process. I think that is 
what I am getting at. We have a mechanism whereby, after 
something has been kicked around for a few years, the guy at 
OIRA takes a look at it, and by that time all the forces that 
can be brought to bear in this town are there on his desk. 
Oftentimes there are a lot of political considerations there 
that have to be taken into account. The question is whether or 
not we should have someone in the front end of the process, as 
we have in the back end now. It concerns me and it is something 
that I want to talk to my good friend, the Chairman, and 
Senator Collins about as we go along, as we consider markup 
here in our Committee. I am not sure I have the answer to that, 
but it is something I think we all ought to be thinking about.
    Thank you, Mr. Chairman.
    Ms. Whitman. Senator, I would only share your window-of-
opportunity concern for the bill as a whole.
    Chairman Lieberman. Thanks, Senator Thompson.
    Administrator Whitman, I appreciate very much your answer 
to that question. The question of whether EPA should have a 
deputy administrator for science or science and technology is 
an interesting question, and, in fact, Senator Voinovich has a 
bill in on it, but I can tell you that it will make this bill 
more controversial, because as you have suggested--because I 
have already begun to receive, particularly from environmental 
groups, expressions of concern and opposition to the idea of a 
deputy administrator, on the argument that OIRA already 
performs that function and why do it? That is a debate that we 
ought to have and I am happy to have a hearing separately on 
Senator Voinovich's bill, but I do think it will complicate our 
desire to pass this legislation.
    Senator Thompson. Mr. Chairman, if I may ask your 
indulgence just for a second?
    Chairman Lieberman. Sure.
    Senator Thompson. You very well may be right, and I do not 
intend to do that. I must say I find it somewhat depressing 
that any time anyone wants to inject some objective, peer-
reviewed science into this process, some of these groups come 
out of the woodwork and immediately start raising Cain about 
it. Surely we can sit down together and see what makes sense. I 
do not like this anti-science prejudice that we see every time 
we try to do something that makes a little bit of sense at a 
time when I have heard estimates that over half of the 
regulations coming out now are getting overturned by the 
courts. So I apologize for mounting my soapbox here for a 
second, but let's work together and see if we can come up with 
something that makes sense.
    Chairman Lieberman. It is your senatorial privilege to 
mount your soapbox whenever you want, and I look forward to 
working with you on that idea.
    Senator Stevens.

              OPENING STATEMENT OF SENATOR STEVENS

    Senator Stevens. Thank you very much, Mr. Chairman. It is 
nice to see you this morning. I have some other reservations. I 
really do not think we have a road map of what is going to 
happen on the other departments when EPA becomes a department. 
Almost every department now has a whole series of people that 
are involved in environmental activities, and I do not know who 
is going to be setting the real trend for what is the decision, 
based upon, as Senator Thompson said, some scientific 
involvement, as well as some basic environmental concerns 
expressed by people who are in these enormous environmental 
organizations.
    Take wetlands, for instance. Wetlands, when it was a 
doctrine announced in the country by President Bush he pointed 
out--41; is that right? He pointed out that over half of the 
wetlands had been used. That statement was only valid if it 
applied to the South 48, as we call it, the contiguous 48 
States. In Alaska, we had used less than half of one percent of 
our wetlands, but suddenly we were burdened with regulations 
that were issued for the Nation that were attacking those who 
had used already more than 50 percent of their wetlands. We 
have tried and tried and tried to get some understanding of 
that. In my State, if you start to pave your driveway, you have 
to go to EPA. When the St. Vincent DePaul Society in Juneau 
wanted to pave a parking lot in order to save having people 
tramp in mud into their second-hand store, not-so-new store, 
they had to wait a year-and-a-half for EPA approval.
    You spend more time regulating Alaska, your agency does, 
than you do looking at things like POPS. As you know, most of 
the pollutants are coming down in the Arctic, and most of the 
EPA people spend their time in town trying to say: Why are you 
paving that parking lot? Why are you building this road? Why 
are you putting up this building? I see enormous malls in 
Seattle, San Francisco, Denver, wherever I go. We tried to 
build a mall, it takes us 2 years to clear the EPA. I am not 
going to go so easy on this bill this year unless we get 
something in this bill that says that concepts of EPA, 
including wetlands, shall be applied evenly across the country. 
I do believe we have been held hostage by the EPA since the 
wetlands doctrine was announced, which was intended to be 
primarily for Florida, and why should Alaska be hostage to 
that?
    I think that this concept that Senator Thompson has 
mentioned, Ms. Whitman, is absolutely correct. Too much of 
environmental protection is prejudiced and not based on 
science. I think that amendment, Mr. Chairman, is going to be 
offered and it is going to be debated and we are going to find 
out why we cannot listen to the scientists. Why can't we listen 
to them with regard to the permanent--organic pollution concept 
in my State, for instance? We know that a lot of people are 
being harmed up there right now. As a matter of fact, there is 
a killer whale dead in Prince William Sound right now because 
of pollution that came from Japan. Those chemicals were never 
used in Alaska and yet this killer whale is dying because of 
pollution that came through the winds, apparently, into the 
Prince William Sound.
    I think we ought to listen to science and your agency ought 
to be bound more by it than by the lobbying and the extreme 
political aspirations of so many people out there in this 
radical environmental world, and I hope that people will listen 
to us as we go forward. I believe your agency should be a 
department, but it should not be a department that does not 
have authority over these other agencies in terms of laying 
down some sound scientific guidelines and how to deal with the 
problems we face in the future.
    I do not have any questions. I appreciate your visit to my 
State. I hope you will come back again and again, because I 
think that the more that people come to our State, they 
understand how some of these extreme positions that are being 
announced are retarding our ability to deal with environmental 
problems. I hope that the result of having a Department of the 
Environment will give us more strength to deal within 
government with this extreme radical lobby that is out there 
who they just set goals without knowing what they really mean, 
or how they really impact our environment, but that is their 
goal without regard to science. I think science ought to be our 
guideline for the future in dealing with environmental 
problems.
    Thank you very much, Mr. Chairman.
    Chairman Lieberman. Would you like to respond?
    Ms. Whitman. I will simply say to the Senator that from his 
eloquent expression, he could think that things could not get a 
whole lot worse, so making us a department might, in fact, make 
it better as far as interaction with other departments. But a 
large part of what you are talking about, Senator, as you and I 
have discussed, goes to the application of regulations as much 
to the science behind them. I would say that part of the 
problem we all suffer with from Washington is that we tend to 
think in global concepts and think from the perspective that 
what we know here is right for everybody in exactly the same 
way. As we well know, what happens in Alaska is very different 
from what happens in Arizona, and the way we apply our 
regulations, the way we apply our standards, it needs to take 
into effect the fact that there are real differences that have 
real impacts on environmental regulations and on environmental 
outcomes. We need to be better about that as much as we need to 
be better about ensuring that science forms the basis of any 
decision and regulation that we make.
    Senator Stevens. I only have one thing, as former chairman 
of Appropriations, you should take a look at where your money 
is spent. It is spent where the population is, not where the 
problems are. I really question that sincerely. You look at the 
Arctic. The Arctic has warmed seven degrees; the rest of the 
world, one degree. Do you know how many people we have working 
in Alaska, working on trying to find the answers to some of the 
questions that come from the fact that the Northwest Passage is 
open, that the ice off our shores has thinned by three inches 
last year alone?
    They are not looking at the science. They still are trying 
to consider how much more of our land ought to be withdrawn and 
how many more things ought to be laid down to prohibit us from 
doing things we have to do to live in Alaska, than to make the 
studies of what is happening to the globe because we do not 
understand what is going on in the Arctic. I think you spend 
most of your money along 50 miles of the coastline of the South 
48. Look at it some time. Thank you.
    Chairman Lieberman. Thank you. I was just thinking about 
what a difficult job it is to be administrator of EPA, why it 
may be difficult to engender the raise in status, because of 
the many hearings I have sat through at this Committee on 
environmental protection looking at Carol Browner, Bill Reilly 
and yourself, where I have heard EPA criticized for its failure 
to do enough to protect the environment, based on the 
evaluation that the witnesses before is made of the science in 
those cases.
    Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman. Governor, welcome, 
how are you? It is nice to see you. Senator Stevens said that 
he hopes you will come to Alaska often. He says you are always 
welcome there. We would like for you to come to Delaware, too, 
even this week.
    Ms. Whitman. We might be able to arrange that.
    Senator Carper. If we are not here voting, I hope to be 
there to welcome you to the Chrysler assembly plant where we 
build all the world's Durangos. Thank you for coming back to 
Delaware. I must say, Mr. Chairman, this is an aside here. 
Senator Stevens was talking about the effect of global warming 
and I do not mean to be flip about this, but he mentioned--what 
did he say? The temperature has risen by seven degrees?
    Ms. Whitman. In the last 100 years, it has been seven 
degrees.
    Senator Carper. I am thinking spring break in Alaska for 
our college students instead of the Bahamas or Fort Lauderdale. 
That is pretty remarkable. That is remarkable. On page two of 
your testimony, Governor, I am going to ask you this because it 
is pretty short. It says, ``While the Boxer-Collins bill is 
more prescriptive, I believe that the Boehlert-Borski bill 
provides the agency with the flexibility it needs to ensure 
that the transition to cabinet status goes as smoothly and 
efficiently as possible.'' I would just ask you if you would be 
willing to give us some idea of what you are talking about 
there with respect to this Boxer-Collins bill being more 
prescriptive?
    Ms. Whitman. Actually, I changed that testimony slightly to 
say that there were technical changes that we thought were very 
easily made with it and I would be happy to submit those. I 
would be happy to work with the staff to make any changes. Some 
of them are technical changes. They have to do with language of 
things that are already in statute and the language used in the 
bill might put us in conflicts with some other laws and 
regulations that govern what happens. So they are not huge.
    Senator Carper. Good.
    Ms. Whitman. It is the difference between 25 and 5. Is that 
what they said the number of pages were?
    Senator Carper. That is a lot of changes. All right, I want 
to go back to the point that the Chairman touched on, and that 
is this legislative proposal of Governor Voinovich and the 
junior Senator from Delaware with respect to science. I have 
been George Voinovich's No. 2 guy for a long time. He was 
chairman of the NGA when I was vice chairman. He was chairman 
of Jobs for America's Graduates. I was vice chairman. I get 
here to the Senate and he is Chairman of my Subcommittee and I 
am sick of it. Here I am, playing his second banana again on 
this legislation. I do not know if you are familiar with what 
we have proposed, but I would welcome any comments that you 
might have to share with us.
    Ms. Whitman. Well, as I indicated before, I am in absolute 
agreement with all the comments that were made and the thinking 
behind the bill in the sense of the importance of science 
forming the basis of the decisionmaking down at the 
Environmental Protection Agency. It gives us our credibility. 
It needs to be at the heart of every decision that we make. My 
concern at the moment, and Senator Thompson expressed it well, 
although from a different perspective about having a window of 
opportunity, the window of opportunity for elevation of the 
Environmental Protection Agency to a cabinet-level position 
seems to be coming together now. Those windows are brief. We 
have seen this bill attempted numerous times since 1988, when 
the first piece of legislation elevating the agency was first 
introduced.
    It is one of those questions that I believe is deserving of 
a thorough review. It is deserving of a very comprehensive 
discussion. I am more than happy to have it. I have undertaken 
some internal changes within the agency to ensure that science 
is an automatic part of the front of decisionmaking as we start 
to look at regulations, that we incorporate science from the 
very beginning.
    My concern is that by adding it at this point to this 
legislation, to what has been offered, will, in fact, start to 
shut that window on us. This is what has happened to the 
legislation in the past, when clean bills have been introduced, 
very legitimate interests, very legitimate concerns have been 
added to it in order to make it better, and in doing that other 
interests then have come forward and said that they needed to 
be added and at the end of the day the legislation grew so top-
heavy that it was defeated. I would hate to see us lose that 
window of opportunity while at the same time saying that the 
concerns raised through the Voinovich-Carper bill are very real 
and ones that we need to continue to discuss.
    Senator Carper. I would very much like to be able to call 
you Secretary Whitman instead of Governor Whitman all the time, 
and I would like to see the Boxer-Collins bill be enacted and 
am pleased to be supportive of it. I would hope that George 
Voinovich and you and I and our colleagues here could put our 
heads together and figure out how to constructively address the 
concerns that are raised in our joint proposal as we go 
forward.
    The last thing, I met with our former colleague, Tommy 
Thompson, last week, and I asked him, ``How are you doing?'' He 
said, ``Well, I am pretty busy.'' I said, ``Is there anything I 
can do to help you?'' He said, ``We are trying to get some 
folks confirmed before the August recess, and I have been 
working with our leadership on our side and the Finance 
Committee Chairman, to try to get some names moved along.'' How 
are we doing with respect to your key nominees before the 
August recess? Are there some that we need to be helpful on?
    Ms. Whitman. Absolutely, Senator, I will take you at your 
word. In fact, I have four before your Committee tomorrow and I 
would hope that we would be able to move them forward. You do 
not recognize what a difference it makes having people aboard, 
confirmed, until you get them, and then you suddenly realize 
what an incredible difference it makes to have someone else who 
can come up here to testify to give you the technical expertise 
and answers that you need, as well as to appear and to 
negotiate with other outside groups and just take some of the 
burden off. Right now, I only have two confirmed people at the 
agency, my deputy and the head of the Office of Prevention, 
Pesticides, and Toxic Substances. So it would be enormously 
helpful if we can get these others through and to a vote on the 
Senate floor.
    Senator Carper. I would just ask your staff who are here to 
please communicate today with Jim Reilly on my staff, and we 
will do whatever we can to be helpful.
    Ms. Whitman. We will do that.
    Senator Carper. Thank you.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Carper. Administrator 
Whitman, we have no further questions. Thanks for your 
testimony, for your support of the bill, and also for your 
steadfastness to the idea of working together to keep this a 
clean bill, and I think if we do we can achieve this and it 
will be significant, and, as Senator Carper said, we look 
forward to welcoming you back hopefully in this session of 
Congress as Secretary Whitman.
    Ms. Whitman. Thank you very much.
    Chairman Lieberman. Thank you. The third panel will be 
Carol Browner, former Administrator, Environmental Protection 
Agency; Bill Reilly, former Administrator, EPA; and Don 
Elliott, former General Counsel, EPA. I really appreciate the 
trouble that you all took to be here today. I was thinking, as 
I looked over at the three of you sitting there, and I hope you 
do not take this the wrong way, that suggests that I think you 
are aging, because you are not. You all look wonderful. But I 
had the same feeling I had when I read the stories about old-
timers day at the stadium; you know, like Yogi, Whitey and 
Willie. Anyway, you are all stars. You served our Nation. You 
belong in a--if I may continue this awkward metaphor--in an 
environmental Hall of Fame.
    Senator Carper. Mr. Chairman, if they are old-timers, they 
are rookie old-timers.
    Chairman Lieberman. They are very rookie old-timers.
    Mr. Reilly. So long as it is not Lou Gehrig day.
    Senator Thompson. Do we have an opportunity to disassociate 
ourselves with your remarks?
    Chairman Lieberman. I think it is self-evident. [Laughter.]
    Thank you for being here.
    Carol Browner--Hon. Carol Browner--we look forward to 
hearing your testimony now.

 TESTIMONY OF HON. CAROL M. BROWNER,\1\ FORMER ADMINISTRATOR, 
              U.S. ENVIRONMENTAL PROTECTION AGENCY

    Ms. Browner. Thank you, Mr. Chairman, and let me thank all 
of you for the opportunity to appear before this Committee on 
this matter. Obviously, after 8 years of public service, there 
are a number of things I miss. You may be surprised to hear 
that one of the things I miss is testifying before Congress. I 
did a lot of it. There was 1 week when I testified five times, 
five separate committees, and five separate issues. But I 
always enjoyed the opportunity to engage in a thoughtful debate 
and discussion on matters important to the people of this 
country and I thank you for including me in this hearing today. 
It is a real pleasure to be here with one of my predecessors, 
William Reilly, and I have to say I look forward to calling my 
successor, Governor Whitman, Secretary. It is a long overdue 
elevation and I want to thank you, Senators Collins and Boxer, 
and Congressmen Boehlert and Borski for taking the initiative 
to bring this matter back before the Congress.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Browner appears in the Appendix 
on page 46.
---------------------------------------------------------------------------
    I was a part of President Clinton's cabinet from the day I 
took office at EPA, January 23. I had a seat, a chair at the 
table, as did Mr. Reilly and as does Administrator Whitman 
today. The time to make this a permanent chair on behalf of the 
Environmental Protection Agency is truly long overdue. I 
believe that making EPA a permanent member of the President's 
cabinet will guarantee EPA the stature and recognition that it 
deserves and it will reaffirm its position of importance in the 
health and welfare of the American people and the world today 
and into the future. I also want to say that I think it is a 
fitting tribute to the work of the 18,000 public servants who 
make up the EPA.
    These are some of the most wonderful and committed 
professionals and staff that I ever had the opportunity to work 
for, and it would be a very fitting tribute to their commitment 
to public service. Many of the senior people at EPA have been 
there literately from the beginning. They helped give birth to 
the new agency and have led it through all of its tremendous 
successes and obviously through many challenges. When the 
Senate and House were considering the creation of EPA many 
years ago, Russell Train, who subsequently served as the second 
administrator of EPA, said, ``The EPA will provide us with the 
unity and the leadership necessary to protect our 
environment,'' and I think in the last 30 years it is certainly 
true that EPA, working on behalf of the American people, 
working with members of this body, of the Congress, of the 
Senate, have certainly provided the leadership and the 
incredible progress that we have made in cleaning and 
protecting our air, our water, our land, the health of our 
families, and the health of our communities.
    EPA has strengthened and improved air and water quality in 
communities across the country. It has set limits on dumping 
waste and cleaned up hundreds, literately hundreds now, of the 
largest Superfund toxic waste sites. EPA has met new 
challenges, creating cutting-edge programs such as Brownfields, 
which is a huge success, and I hope that legislation will also 
be passed this year. It is something I spent a lot of time 
supporting. Unfortunately, we were not able to see it all the 
way through, but I hope you will do that now--the STAR program, 
Science to Achieve Results, another cutting-edge program.
    EPA has banned pesticides that are harmful to our 
children's health. It has honored the public's right to know 
about their community and environmental challenges in their 
community. When I came to EPA almost 9 years ago, the EPA web 
site got about a half-a-million visits a month. By the time I 
left EPA in January, it was 100 million visits a month. The 
American people care about the work of the EPA. They are 
interested and I will always believe that any decision EPA 
makes on behalf of the American people and their environment 
will be a better decision when the public is informed and 
engaged in that decisionmaking process, and fundamental to that 
is honoring the public's right to know.
    As you heard, EPA works around the world. It is joined with 
countries to secure important global environmental agreements. 
I was very pleased when the current administration signed the 
convention on the persistent organic chemicals. We spent a lot 
of time negotiating that. I was very pleased that had been 
signed. The Montreal Protocol, another important international 
agreement that is reaping benefits--we are actually making 
progress and fixing the hole in the upper ozone. We have heard 
a lot of countries have these agencies and they are cabinet 
level. I am just going to add two to the list of countries.
    I just want to point out that the Bahamas and Kenya also 
treat their EPA as members of their cabinet. The United Nations 
has numerous Committee's now, recognizing that environmental 
policy is part and parcel of foreign policy, and nothing in 
that is going to change in the short-term. I believe that the 
United States is uniquely situated with the experience, the 
expertise of EPA, to provide important global leadership. When 
the EPA was being created, an alternative was actually proposed 
by some, and that was the creation of a more comprehensive 
cabinet-level Department of Environmental Quality.
    Well, today, I believe that the EPA has become essentially 
that. It deals with matters spanning all types of environmental 
issues, government bodies. However, with every change of 
administration, EPA risks losing its voice in the cabinet at 
the table. Permanent conclusion, as I said, is long overdue. It 
will ensure that the work of the EPA is front and center in the 
work of any administration, and I can think of no finer tribute 
to the successes of EPA over the last 31 years, and a 
recognition of the challenges that still lie ahead when it 
comes to protecting the health of our citizens and our 
environment.
    Thank you.
    Chairman Lieberman. Thank you very much, Administrator 
Browner. That was an excellent statement. I appreciate it. I am 
having trouble pulling away from baseball here.
    Ms. Browner. My favorite sport.
    Chairman Lieberman. I know. Statistics are so important. 
Apart from the extraordinary accomplishments of your time at 
EPA, if I am not mistaken, you hold the record as the longest-
serving administrator of EPA.
    Ms. Browner. That would be correct. Someone was once 
introducing me and got to the point of wanting to point out 
that I had the record, and instead of saying serving, they 
said, ``And she's the longest-suffering administrator.''
    Chairman Lieberman. We can identify with that.
    Ms. Browner. It was a great job and it was an honor.
    Chairman Lieberman. Thanks. Administrator Reilly, thanks 
for being here. It is great to see you, and in your case, maybe 
you are the one who engendered that baseball--the old-timer 
feeling--because I have recollection of those now fabled days 
and weeks we spent together with many others in that room off 
the then-Majority Leader George Mitchell's office, when we 
negotiated in painstaking and painful detail what became the 
Clean Air Act Amendments of 1990, which have really been such a 
remarkable success, and in no small measure due to your 
leadership. So a pleasure to welcome you back. Good to see you.

 TESTIMONY OF HON. WILLIAM K. REILLY,\1\ FORMER ADMINISTRATOR, 
              U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Reilly. Thank you very much, Mr. Chairman. It is a 
pleasure and an honor, as it always is, to be consulted by the 
Senate on a matter of importance. This is only the second issue 
I think I have testified on since I left office. The other was 
the establishment of the Presidio National Park and the 
Presidio Trust, to which President Clinton then appointed me, 
and that, for your information, parenthetically, is going 
swimmingly.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Reilly appears in the Appendix on 
page 48.
---------------------------------------------------------------------------
    Let me first of all compliment you all. I have a statement 
that I have provided and ask that be included in the record.
    Chairman Lieberman. We have it and it will be printed in 
the record in full. Thank you.
    Mr. Reilly. Let me first of all say that I congratulate 
you, sir, Senator Collins, Senator Boxer, Senator Thompson, and 
Senator Carper. Mr. Boehlert, of course, has been on this issue 
for a long time, as I have. As you recall, President Bush did, 
in fact, propose cabinet status for EPA. We had a run at it and 
the measure ended up being encumbered with a lot of good ideas, 
many of them, but too many to build a consensus necessary to 
pass it. I think that lesson is before us. I hope it is learned 
and I that this time we do keep the bill clean as you yourself 
had earlier suggested.
    Many things have been said that make clear why the 
Environmental Protection Agency should be in the cabinet. Let 
me also say what a pleasure it is to appear with both my 
predecessor, Carol Browner, my friend and also my former 
general counsel, Don Elliott. This is old home week here. It is 
not Lou Gehrig day, though. Let me give you essentially three 
reasons why I believe EPA belongs in the cabinet, and in doing 
so will try to respond to some of the concerns that Senator 
Stevens has expressed.
    I recall, before going to EPA, having a conversation with 
an old-time reporter who said to me, ``Well,'' he said, ``You 
know, you are going to the best agency, and I have covered them 
all.'' I said, ``That is not exactly the reputation on the 
street.'' ``Oh,'' he said, ``Look, EPA will make two decisions 
a week that it would take Interior, Agriculture or HUD 6 months 
or the better part of a year to make.'' He pointed out that the 
decisions of EPA typically involve the intersection of science, 
health, economics, and thus require the most sensitive and 
sophisticated interrelationships of any agency, and EPA must do 
this as a matter of course and it must do it over and over 
again.
    The job of the environment is essentially a task of 
integrating a variety of concerns with a broad environmental 
perspective. That brings the agency into conflict frequently 
with other interests and those who speak for them and who have 
a different sense of priority and turf. In one of the 
experiences I had, and I suspect Carol Browner had, and I know 
Russell Train had, because we talked about it, and Bill 
Ruckelshaus had, is of going early to a cabinet meeting and 
walking in and finding an otherwise congenial group suddenly 
looking warily at the EPA Administrator because he or she has 
an argument with every one of them. You are arguing with HUD 
about siting public housing in wetlands, and you are arguing 
with the Agriculture Department about pesticides and with 
Interior about water contracts, and so it goes.
    At that moment, you very much need a President to say that 
is the nature of the job. I had one. It is not guaranteed one 
always will, and the fact of lacking parity of status in that 
room does, in fact, I believe, matter. It matters to some more 
than others. Obviously, the agency has more power than several 
of the domestic departments, but nevertheless that matter of 
status, that symbolism, is important. It is important also 
around the world, and perhaps is more important. I testified 
seven times for the North American Free Trade Agreement. I sent 
people to China to work on the recapture of methane from coal 
mines and on the suppression of cement kiln gas, and those 
relationships proved enormously important in winning China's 
support for the Montreal Protocol, which was a close-run thing. 
They were planning to bring 700 million refrigerators over the 
next 10 years into manufacture containing ozone-depleting CFCs.
    Those international activities we undertook were important 
to our mission, and I particularly applaud the inclusion of the 
international responsibility very specifically in the Boxer 
bill. What we did, internationally we financed by stealth--we 
borrowed from the water program or the air program. We did that 
because the problems in different parts of the world, however 
much they seem egregious and difficult in the United States, 
are so vastly more serious, complicated, and much larger 
threats to health. Other nations desperately need our help. The 
agency will be in a far better position to provide that help if 
it is a cabinet department.
    Finally, I think there is an issue that goes to Senator 
Stevens' concern, and it has to do with the self-understanding 
of the agency itself. The EPA is--first and foremost, its core 
responsibility is a regulatory responsibility. Protection is in 
the title, but that is, by far, not the full story. The agency, 
the department, in recent years has had to concern itself with 
information, with technology transfer, with partnerships with 
State and local governments, with advising on air conditioner 
technologies and dry cleaning establishments, a whole range of 
things, to say nothing of free trade, and, as you know, one 
dare not bring a trade bill before the Congress without 
attending to its environmental ramifications.
    There is no one else to speak to those issues with the same 
perspective and authority as the EPA administrator. In fact, 
without that responsibility assumed by administrators, often it 
would not be often spoken for at all. I believe very much that 
cabinet status for EPA is an important issue. I think its time 
has come. It will send the right signals to the agency itself 
with respect to the range of responsibilities, the 
sensitivities it should display beyond regulation. It will send 
one to the international community and it will send one to 
those other cabinet officers who often have occasion to have 
conversations with the EPA administrator about things they are 
doing that he or she would rather they not.
    Thank you, sir.
    Chairman Lieberman. Very well done. Thank you.
    Don Elliott, welcome back.

TESTIMONY OF HON. E. DONALD ELLIOTT,\1\ FORMER GENERAL COUNSEL, 
              U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Elliott. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Elliott with an attachment 
appears in the Appendix on page 55.
---------------------------------------------------------------------------
    Chairman Lieberman. Neighbor.
    Mr. Elliott. It is a great pleasure to be testifying in 
front of this distinguished Committee, which is now chaired by 
Senator Lieberman from my home State of Connecticut, just as it 
was a pleasure to testify in the past when it was chaired by 
Senator Thompson. It is particularly a pleasure to be 
testifying on something that has more bipartisan support than 
some of the regulatory reform proposals that I testified on in 
the past. I strongly support the bipartisan proposals to 
elevate EPA to cabinet status. It is time, really long past 
time, to make our environmental department part of the cabinet.
    Some of my friends in industry have expressed to me their 
concerns that in elevating EPA to the cabinet, we might further 
politicize its decisions. I think this need not be the case, 
but I do believe we should build into the structure of the new 
environmental department provision for a high-level chief 
science officer. So I support the Voinovich-Carper proposals 
for a chief science officer. I think they can be improved in 
some ways that we can talk about, perhaps in the questioning 
period, by creating an under secretary, rather than a deputy. I 
think two deputies would be a mistake.
    We all understand the importance of a clean bill. There are 
a lot of things substantively that I would like to see. I have 
been a longtime supporter of substantive provisions for 
alternative compliance legislation, like Senator Lieberman has 
been supporting for a number of years. I think that would do a 
lot to deal with some of the one-size-fits-all problems that 
Senator Stevens and others have talked about, but I do not 
think that those kind of substantive provisions belong in this 
bill. So we will have to wait on those.
    But I do think it is appropriate to discuss structural and 
organizational issues, and I think there is plenty of room in 
this bill to designate a high-level chief science officer, just 
as the pending bills designate chief legal officers, chief 
financial officers, and chief information officers. In a sense, 
science is conspicuous by its absence from mention in some of 
the current bills. I think the single greatest failing in the 
current structure of EPA is the absence of a high-level 
advocate for good science at the agency's highest echelon.
    The philosopher Adam Smith wrote, ``Science is the antidote 
for enthusiasm and superstition.'' Good science can be very 
helpful in counteracting the enthusiasms, either of the right 
or the left, and making sure that the agency stays on a steady 
course. Now, of course, science alone cannot make decisions. 
There are always uncertainties and values, but the risk today 
is not that we will have too much science and too little 
politics in our environmental decisions, but rather the 
opposite. As Professor Steve Goldberg at Georgetown put it one 
time, ``people accuse regulatory agencies of being captured by 
all sorts of interests, but nobody accused a regulatory agency, 
particularly not EPA, of being captured by scientists.''
    I applaud the efforts that have been made in recent years 
to upgrade the role of science at the agency. There is a world-
class science advisory board. I think the STAR program and 
enhanced peer-review, enhanced role is for scientists on the 
work groups, and a number of things that Administrator Browner 
did were very good steps. The remaining problem, though, is 
that science is not often heard in the top councils of the 
agency when decisions are finally made. Science needs a high-
level voice at the department, just like the law has a high-
level voice through the general counsel, and I support the 
recent recommendation by the National Academy of Sciences that, 
``Just as the advice of the agency's legal counsel is relied 
upon by the administrator to determine whether or not a 
proposal is legal, an appropriately qualified and empowered 
chief science official is needed to attest to the administrator 
and the Nation that proposed action is not inconsistent with 
available scientific information.''
    Members of the Committee, the reality of the matter is that 
a strong norm of turf has developed at EPA, and it is part of 
the culture that AAs in one program do not comment and 
criticize on what is going on in the bailiwick of another. For 
that reason, I believe that creating a chief science officer, 
not just at the AA level, but at a higher level, such as the 
under secretary level, would send a strong organizational 
message to the agency about the importance of science. In 
government, the best is often the enemy of the good, and I 
support elevation, but it is my judgment that structural and 
organizational issues, like creating a chief science officer, 
are not really loading the bill down with extraneous materials 
in the way that if we were trying to address substantive 
matters we might be.
    Just one final point. At some times in the past, we have 
had assistant administrators for ORD, the Office of Research 
and Development, that have performed that role. In the same way 
that we need to create a permanent organizational status for 
EPA in the cabinet, we need to create a permanent 
organizational status for science in the structure of the 
Department of the Environment, so that it is not dependent upon 
the whim of a particular administrator or the personality of a 
particular assistant secretary.
    Thank you.
    Chairman Lieberman. Thank you, Mr. Elliott. As you heard, 
we talked about this before, and I think you make a good point, 
which is that adding a deputy is different from, for instance, 
adding an amendment with your favorite position on climate 
change. But the reality is that it will be controversial. We 
have already had input on the bill that I erroneously referred 
to as the Voinovich bill. Now it is the Voinovich-Carper bill, 
and it is, in fact, the Voinovich-Carper bill, and so I think 
that is what should concern us. I know that Senator Boxer, in 
her work with Senator Collins, actually turned away from some 
initial ideas she had about, for instance, creating in this 
bill a new Office of Environmental Justice, which one could 
certainly make a case for. But out of concern that it would 
arouse opposition to the essential purpose here, I wonder 
whether the two previous administrators would like to comment 
on this proposal and its relevance to the elevation bill.
    Mr. Reilly. For my part, Senator Lieberman, I tried to give 
a very high priority to science, and I think that the integrity 
of scientific research underlying regulations is central to 
their effectiveness, their acceptance publicly, their survival. 
The question of whether and why science should have more status 
and does not have the status at the agency that it might is a 
complicated one, but in my experience it was difficult to 
recruit an assistant administrator for science for ORD. It was 
difficult to staff the agency, to interest graduating Ph.D.'s 
and researchers in working for EPA and hitching their wagon to 
that star. The reason was the episodic ups and downs of budget 
for science at the agency. OMB has not supported a strong 
scientific component, budgetarily, historically, at the agency, 
for a variety of reasons.
    One reason was made clear to me once very explicitly. The 
more we give you money over there for research, the more rocks 
you will lift up and find things that we have got to regulate 
and pay for. That, I think, has been a somewhat persistent view 
through the history of the agency, and it has had a deleterious 
impact on the scientific establishment within the organization. 
With respect to the structure of the agency, what I am 
suggesting is the problem has not been structure. We have tried 
to give a high priority to science at the agency. It is one of 
the most important concerns, and the assisted administrator for 
ORD is supposed to speak to those concerns. I certainly would 
not create the impression that science, all of a sudden, is the 
responsibility of one individual or office holder in the agency 
and therefore the rest of them can forget about it. If that is 
the implication of the deputy, I would think that a big 
mistake, and finally I do think that it is starting down a road 
of encumbering the bill with arguably good ideas that will not 
seem good to somebody and we will be right back where we were 
in 1991.
    Chairman Lieberman. Thanks. Ms. Browner.
    Ms. Browner. Well, in keeping with the bipartisan 
commitment to this piece of legislation, I will largely align 
myself with my predecessor, but let me add a few quick points. 
There is a Senate-confirmed position in EPA today responsible 
for science. That is the Office of Research and Development, 
and I think, as Mr. Reilly said, the person who serves in that 
job functions in many ways as a chief science officer for the 
agency.
    One of the concerns I have with singling out one person to 
speak on behalf of all of the science of the agency is that the 
breadth of knowledge and the breadth of scientific research 
that the agency engages in is not going to be easily spoken to 
or represented by one individual. For example, when we were 
working on the air pollution standards for ozone and fine 
particles, which I spent many, many years working on, there 
were numerous scientists that I met with in the agency who had 
committed their life to the analysis and the scientific 
research, and they knew little pieces of each area.
    So I think we need to be cognizant of the fact that when we 
talk about good science, we are not simply talking about 
qualified researchers, we are also talking about process, peer 
review, and I appreciate Mr. Elliott's kind words about 
everything we did to institutionalize a scientific process. I 
think if I had one thought as you look forward, it would be not 
to focus on necessarily the structure, per se, but to ensure 
that the agency has the resources to manage the scientific 
process. It is expensive to run peer-review panels. You pay all 
those people. You have to bring them in. They meet over 
extended periods of time, and we were very successful in 
getting a good, strong budget and maintaining it, but as the 
agency goes forward in the future, that will be even more 
critical.
    Science is fundamental to everything EPA does. Good science 
is absolutely essential, but we need to be flexible to allow 
the scientists to do to work that they are skilled at doing and 
then do the peer review that gives the administrator, the 
secretary, the ability to make the decision.
    Mr. Elliott. Mr. Chairman, could I just respond very 
briefly?
    Chairman Lieberman. Yes, and when you do, let me ask you to 
answer this question: Why would not a deputy or under secretary 
in EPA dealing with science be a duplication of the work that 
OIRA does, and we have just been through a battle over the 
nomination of John Graham. He has been confirmed, but in his 
hearings, in his confirmation hearings, he was actually quite 
explicit about the fact that he would like OIRA to get more 
involved up front and actually with the agencies as they 
develop their regulations, and I think part of it, from his 
point of view, would be to infuse cost benefit, economic, and 
scientific evaluations.
    Mr. Elliott. In my prepared testimony, which I would ask to 
be made part of the record, I specifically stay away from 
endorsing the specific question of a deputy, because I think 
having two deputies at EPA would be a problem. That would 
really create turf wars. With regard to OIRA, as you know, I 
was a strong supporter of John Graham, but I do not think OIRA 
or its staff has a great deal of scientific expertise or 
knowledge. That is part of their mandate, but I do not think 
that is really their strong point, as opposed to economics.
    With regard to ORD, there are two issues. First of all, at 
some points in the past, the Office of Research and Development 
has played the role and it could play the role that we are 
talking about. It has not always done that, and as I point out 
in my prepared testimony, some of the language about non-
delegation could be read as essentially prohibiting one 
assistant administrator or assistant secretary from, 
``supervising the work of another.'' So I think at a minimum it 
would be helpful to clarify in legislative history or statutory 
language that it is not the intent of that provision to 
prohibit ORD from playing that role.
    What I have argued for in my testimony is the designation 
of a chief science officer as an adviser to the administrator 
at the political level on scientific questions. Now, I believe 
that you need the staff level of expertise, which we have 
beefed up, but I think you have put that together with a 
principal who is committed to being an advocate for the issue. 
Good staff work without member support does not get the job 
done. You need both a good staff--and I think enhanced peer 
review provides that--but you also need a principal who is 
going to go in to the administrator every once in awhile and 
say, ``Boss, this just does not wash from a scientific 
perspective.'' I do not view that as something that is going to 
happen every day. The general counsel does that maybe two or 
three times a year.
    But it is very important to empower the scientists on the 
working group, that they have a principal who can back them up 
and has the ear of the administrator. Sometimes that happens, 
but today it is dependent on the personality and forcefulness 
of the people that we get in that job, and by raising its 
status, particularly to the under secretary level, I think that 
the Congress would send a strong message and we would recruit 
better people. It is not a substitute for budget. It is not a 
panacea, but it would help.
    Chairman Lieberman. Thanks. My time is up. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. Mr. Chairman, I 
think there is a legitimate distinction between structural 
changes, such as adding another assistant secretary or deputy 
or chief science officer, versus changes that would alter EPA's 
authority or powers. So I can see why the issue of creating 
some sort of chief science position is coming up in this 
debate, because I think those are structural changes and ones 
that the Committee might well look at as we consider this 
legislation. I would note that Congressman Boehlert, who is the 
strongest proponent of elevating EPA on the House side, is also 
a co-sponsor of a separate bill in the House that would create 
a deputy secretary of science for EPA. Mr. Elliott has 
mentioned that there are structural issues on what exactly that 
position should be. I guess, however, my concern remains as to 
whether raising this issue would impede the progress of this 
bill on which there is strong bipartisan consensus, and I do 
not know the answer to that question. I am unclear why creating 
this position would be controversial, in that it sounds quite 
logical to me. So I guess my first question for Mr. Reilly is 
to enlighten me as to why it would be deemed controversial to 
create this position.
    Mr. Reilly. Well, I think, Senator Collins, that the idea 
of elevating science, like the idea of ensuring good cost/
benefit or good economic analysis, doing a number of other 
things, has an appeal and would certainly have supporters. But 
I think one of the first questions that would be raised is if 
we are going to look at the agency structurally and in detail 
to that degree, to elevate a concern we think has had 
inadequate attention in the past, why confine it to science? 
There are many other things that the agency is responsible for, 
as I mentioned. One could say public health ought to be 
something that over-arches many of the things that the agency 
has done.
    In my own time, I thought that ecology had been under-
represented. One could have someone who is responsible for 
making sure that the non-health concerns of the agency, which 
get less attention from the press and from the public than the 
health concerns, be elevated. You cannot win those arguments. 
They are very compelling arguments. But as you start down that 
road, pretty soon I think you have a bill that will not command 
the support that simple elevation will command.
    By elevating the agency, one certainly does not rule out 
the possibility of revisiting the question of is there an 
effective way to ensure that science is better represented in 
the decisionmaking at the agency? Honestly, if you do that, I 
think you will find that there are problems with many of the 
statutes that do not accord the kind of respect for science, 
were not debated even here with a good scientific formulation 
or background, and that perhaps they ought to be revisited, as 
well. What I am suggesting is that is a long and important, but 
I think difficult road, and I would not try to go down it at 
the same time as I tried to do the elevation of EPA.
    Senator Collins. Thank you. That is helpful, and that leads 
me to suggest to the Chairman most respectfully that maybe the 
answer is to move both bills separately, because the Voinovich-
Carper bill clearly has a lot of interest and a lot of support. 
Maybe that is an important debate, but it should be a separate 
debate. Mr. Reilly, I want to ask you one other question. You 
talked about the difficulties in recruiting well-qualified 
scientists to take positions at EPA. Do you think that raising 
the EPA status to cabinet level might well help with some of 
the recruitment by increasing the status or the prestige of 
working at EPA?
    Mr. Reilly. I think that the consequence of having a 
Department of the Environment or having a group or entity that 
is broader than purely regulatory, both in its own eyes or in 
the eyes of the country, will have the effect of causing 
scientists to understand they can come to the agency and look 
forward to making a career doing some basic science, doing some 
innovative science that will have long-term support because it 
is part of what the agency is supposed to do. In other words, 
that the only reason to investigate a particular scientific 
question is no longer simply because we have got a reg to get 
out next year and we need some science to back it up; that you 
need a broader perspective on the scientific status of the 
environment, for example, nationwide, and that is a legitimate 
responsibility of the agency and I think the answer to your 
question then is yes.
    Senator Collins. Ms. Browner, would you like to comment?
    Ms. Browner. I just want to add that we recognized early on 
in our tenure that this was a real challenge for the agency, 
attracting young scientists into the agency. If you think about 
it, 30 years ago, if you wanted to do environmental science. 
you went to the EPA. There were not the State agencies. There 
were not all of the industry opportunities and environmental 
organization opportunities that exist today. We had some 
tremendous success by thinking creatively. For example, I think 
Don Elliott mentioned our STAR program, Science to Achieve 
Results. Essentially what we did there is we said, ``You know 
what? There are a lot of great graduate students out there 
whose work would be valuable to the agency. They do not need to 
come work for the agency. We can provide some financial 
resources. They can stay in their university. They can do their 
work. they learn about EPA, and they do work that is a benefit 
to EPA.''
    So I think part of attracting scientists, it is like 
industry today. They have a hard time attracting high-level 
scientists. Thinking creatively--much as I would like to think 
it would be simply fixed by calling it a department, I think it 
is going to require a lot more creative thinking and monitoring 
of how the dynamics in the employment of scientists is going 
broadly. Our STAR program, the first time we advertised it, we 
thought we might get a handful of applicants. We got hundreds 
and hundreds. We were completely overwhelmed by the number of 
young scientists who wanted to do work for the agency, but did 
not necessarily want to come into the agency. Subsequently, 
many of them did. It became a nice way to build a relationship. 
So I think that kind of creative thinking is going to continue 
to be very important.
    Senator Collins. Thank you. My time has expired. I do not 
want you to feel neglected, and I appreciated your testimony. 
Thank you.
    Mr. Elliott. I will try and squeeze it in someplace else. 
[Laughter.]
    Chairman Lieberman. Senator Carper.
    Senator Carper. Mr. Chairman, I want to thank you for 
holding this hearing on the Voinovich-Carper bill.
    Chairman Lieberman. Incidentally, I have to tell you my 
staff has informed me that the bill is actually before the 
Environment and Public Works Committee, so I was engaged in an 
act of manifest destiny in thinking that it was here.
    Senator Carper. Mr. Reilly, I have never had a chance, I do 
not think, to work with you. I want to thank you for your 
stewardship of our country, for our country, and welcome you 
today. To Carol Browner, with whom I served--your terms as 
director and my term as Governor of Delaware overlapping--we 
very much appreciated the great relationship we had, not just 
from my State, but through the Nation's Governors, and it is 
great to see you. I will always remember the time you came to 
Sussex County, Delaware and brought your son about 4 or 5 years 
ago on a very rainy day, and after, I went to Rehobeth Beach 
and it poured down the rain. But we appreciated your coming and 
trying to get a two-fer in that day, and I know we were pleased 
you would participate in our event. I am sorry that it rained 
for your son.
    Ms. Browner. It was a wonderful day. Thank you.
    Senator Carper. Mr. Elliott, you mentioned your neighbor. I 
think I heard Senator Lieberman call you neighbor. How does 
that work? Do you live in his neighborhood?
    Mr. Elliott. Yes, I teach half-time at Yale Law School. I 
have been teaching there for 20 years. So I still think of 
myself primarily as a professor and an environmental law 
professor. So I have a house there and a house here, and I go 
back and forth every week. So I have been teaching at Yale 
since 1981. In fact, that is how we met, in some academic 
conference on tort reform and other issues.
    Senator Carper. You mentioned in your comments and your 
testimony--you talked about other areas of expertise that are 
addressed in the legislation outside of science. I think you 
may have mentioned the role of the general counsel and several 
others, that we do take the time to address in this bill. Could 
you just mention a few of those again?
    Mr. Elliott. The bills talk about a chief legal officer, a 
chief information officer, and a chief financial officer. If we 
had codified the practices and structure of EPA at a somewhat 
earlier time, we would be codifying in statute the role of the 
assistant administrator for ORD in reviewing the underlying 
science. We had for many years at EPA something called the Red 
Border Review Process, which resulted in proposed rules being 
circulated for comment by all the other assistant secretaries, 
and that did provide a mechanism by which the science 
underlying a particular regulation would be taken a look at by 
the assistant secretary for ORD. That was abolished in the last 
administration as part of a streamlining program.
    It is important to codify the practices at EPA, but there 
is a question legitimately as to which particular practice do 
you codify? I think it is literally the case that the 
scientists have been taken out of the reviewing loop at EPA in 
recent years. They still have a very important role in terms of 
peer review and in terms of the working groups, and that is all 
to the good, but I think it needs to be balanced. I would have 
the peer-reviewed documents come back to a chief science 
officer, as well as the program offices, so that somebody can 
take a look at the very excellent comments and questions that 
are raised about proposed rules by these outside peer 
reviewers.
    Senator Carper. Administrator Browner was shaking her head 
just a moment earlier, before I gave her a chance to do more 
than that. Let me just say to my colleagues, the concern has 
been raised that we should not just have one person at EPA who 
is thinking about science, and I would agree with that, but at 
the same time I do not think we want to have just one person at 
EPA who is thinking about legal aspects, would not have one 
person who is thinking about information aspects, one person 
who just happened to be thinking about the finances. Obviously, 
those have to be concerns that go beyond any one person, and 
the same applies here to science.
    What I really want to do here is engage in a dialogue with 
you that goes beyond today, certainly with George Voinovich and 
the leadership of this Committee, and Senators Boxer and 
Collins. I want us to find a way to come up with an effective 
compromise that helps ensure that we do focus more of science 
within EPA, that we do elevate it to the position of a full 
department with the Secretary in charge. I am convinced with 
people as smart as you are, and people as amenable as the rest 
of us are up here, we can work this out. We have to be able to 
work this out.
    Ms. Browner.
    Ms. Browner. I have never in my 8 years of testifying at 
EPA had to discuss Red Border Review. It is a technical issue 
of moving files around at EPA, and to suggest--and I do not 
think Mr. Elliott was suggesting this--but somehow or other 
discontinuing that in the last days of making a regulatory 
decision did damage to the scientists' ability to participate, 
is not probably exactly right. The most important thing for EPA 
is to have science on the front end. A scientist coming along 
10 years after a group of scientists have been doing 
complicated research, subjected to external peer review, and 
then saying, ``Oops, wrong,'' is not going to be helpful to the 
integrity of EPA's decisionmaking. So as we think about this, I 
think we need to be very well-informed on what is an 
appropriate scientific process for the agency, and to 
strengthen that and not add a gotcha at the end.
    Senator Carper. Thank you. Mr. Reilly.
    Mr. Reilly. May I just add something, Senator Carper, that 
goes a little bit beyond science, and it perhaps is a 
provocative point, but as you open up the question of how to 
get better scientific integrity underlying EPA decisionmaking, 
I think it is an excellent question to ask, but you will find 
that many of the problems lie with the statutes themselves and 
within the diverse interests of the various committees that 
authored them. You will have different characterizations of 
risk, different concern about threats, different balancing of 
health versus ecological concerns, different, maybe, exposure 
assumptions if the statute is that detailed. And it is 
profoundly in the interest of the Nation's environmental laws, 
in my view, to try to integrate those things. It is not easy 
and it would involve many committees of the Congress.
    This bill, I believe, opens the door to do that. It 
provides enabling authority for the first time in an organic 
statute to put things together that have never been effectively 
put together, that came, as was mentioned earlier, from five 
different departments. That is one of the great merits of 
cabinet status. I think it will begin that debate about 
integrating our perspective, and people will see that there 
should be fewer disparities among these different statutes and 
the concerns that trigger a regulation as a result.
    Senator Carper. Mr. Chairman, my time has expired. I again 
very much appreciate your testimony here, and, Mr. Elliott, 
especially your comments in support of the initiative. I did 
not realize Sherwood Boehlert over in the House, and Senator 
Voinovich and myself, and you all have forgotten more about 
this stuff than I will ever know. I say that freely. I would 
really appreciate your willingness to work with us as Senator 
Voinovich and I, and Congressman Boehlert, try to find the 
right balance here. We do not want to derail the bill. We want 
to see this legislation passed, but at the same time, we want 
to make sure that when we do that, that the concerns that we 
have expressed that have frankly been expressed by a lot of 
people around the country with respect to the role of science 
are addressed.
    No one will ever accuse EPA of being blinded by science, 
but we want to make sure that, in the end, that its role is 
enhanced, as well. Thank you.
    Chairman Lieberman. Thanks, Senator Carper.
    Senator Thompson.
    Senator Thompson. Thank you, Mr. Chairman. A couple of 
observations: First of all, I'd like to thank all three of you. 
This has been extremely helpful to me--the things you say would 
be beneficial to the EPA by elevating it, and also to the 
science position, by elevating it. Both involve having a seat 
at the table. You can have some science influence there, but 
that is, to a great extent, the discretion of whoever happens 
to be administrator and what their goals are. Just as EPA 
becomes a cabinet-level position, there are certain things you 
cannot do to EPA anymore, and there are certain things that you 
cannot do to freeze out or not use scientific input as much as 
one should, so I think we need to keep that in mind. Also, Mr. 
Reilly, all of the things that you mentioned of concern, it 
seems to me like there was one common denominator for all of 
that, and that is they all should require sound science.
    Mr. Reilly. Yes, sir.
    Senator Thompson. Science is the common denominator for all 
those interests, because science is not just another interest 
group. Science should be an integral part of everything that we 
do. On the legal side of things, I think your point is well-
made, different standards, different laws and so forth. In some 
cases you cannot even consider the cost of something, and in 
other cases, the cost/benefit analysis is required and best 
science is required. So I think that is a good point. On the 
other hand, we have seen some significant instances where--and 
you assume that a person in this position is not going to make 
things any worse, that he would apply the law as he went about 
his or her job. But we have seen instances where more science 
input would have been beneficial. I think maybe the PM ozone 
layer situation is a good example of that. The court held there 
that EPA was arbitrary and capricious in refusing to or not 
considering the substitution risk of reducing ozone.
    Is that not an example where the science part of the 
decisionmaking process should have been given greater weight, 
Ms. Browner?
    Ms. Browner. I am happy to respond as the person who, 
obviously oversaw that. I know you are aware that the Supreme 
Court, Justice Scalia writing for all nine members of the 
court, did uphold those fine particle and the ozone standards. 
I think the issue you are raising----
    Senator Thompson. I do not think EPA even contested this 
part.
    Ms. Browner. The issue that came up into the lower court 
that I think you are raising is whether or not allowing excess 
pollution in the air reduces skin cancer, and as I understand 
it, EPA is going through the process of considering that. The 
fact that EPA did not speak to that in its regulation, however, 
does not mean that it was not part of a rigorous science 
review. I know you know this, but I think it is worth 
repeating. It is widely accepted that on PM and on ozone, EPA 
had more science process and more external scientific review 
and studies than any decision in the history of EPA.
    The process started with hundreds of external peer-reviewed 
studies. That was narrowed by an external peer-review board to 
87 studies, which were then peer-reviewed again. I can go 
through it, and I do not want to belabor it.
    Senator Thompson. I am sure all those points were made to 
the court as they ruled against you.
    Ms. Browner. No, they did not rule--sir, with all due 
respect, those standards are on the books now and the new 
administration has embraced them as the pollution standards. 
The issue goes to the regulatory, not the science side, which 
is in adopting the regulation, the pollution standard, did EPA 
speak to the issue of excess pollution and a reduction in skin 
cancer? It is a very small piece of a much, much larger public 
health decision.
    Senator Thompson. My understanding was it did not go to 
what a substitution risk would show. For example, it went to 
the fact that, in the court's opinion, at the DC level, that 
the EPA did not consider the substitution risk at that point. 
So, to that point, and it is a procedural one, my concern is 
whether or not on something very important, very costly, we 
have a case in point. I have not read the Supreme Court 
opinion, but my understanding is the Supreme Court did not 
address this because EPA did not contest that part of it.
    Mr. Elliott, do you have any input on that, from your 
vantage point?
    Mr. Elliott. There are lots of cases recently where 
reviewing courts have reversed EPA decisions because of concern 
about the science. I think the chloroform standard is perhaps a 
better example, and in an article that I have provided as part 
of my testimony, I have cited a number of cases. But I think 
there is a general consensus in academia that more EPA rules 
are being reversed in court on scientific grounds than in the 
past, and I, at least in print, have expressed the concern that 
the courts are stepping in, because some of EPA's scientific 
credibility has been undermined.
    In terms of recruiting good scientists, if you look at 
other agencies that perhaps do a better job of recruiting 
scientists and have a high-level of credibility in terms of 
science--I think, for example of FDA--it is not so much the 
funding issues as that the scientists are part of the policy 
process. That is one of the mistakes that we have made at EPA. 
People come to Washington not for the money, but because they 
are committed to public service and the role that they have in 
making public policy. We cannot ask scientists to come to EPA 
and put them off in a research lab and not have them be fully 
part of the same policy process that motivates lawyers and 
others to come to the agency.
    We have separated scientists a little bit too much from the 
policy process. There is a great line by Samuel Coleridge, that 
every generation has to deal with the consequences of the past 
generation's reforms. Some of the reforms and streamlining that 
was done in the last administration that get science at the 
front end, I think does really create a problem in terms of not 
having a high-level advocate for science. I do not think the 
high-level advocate for science, at the end of the line, is the 
answer. I think you need both. I think you need scientists on 
the work group and you need peer review, but you also need 
somebody who is in the upper counsels of the agency as the 
advocate for science, because there are advocates for politics, 
there are advocates for interest groups, there are advocates 
for economics. What is missing in the structure today is a 
high-level forceful advocate for science, and I would plead 
with the Committee to figure out some way to get that back into 
the process.
    It has been there at some points in the past, but in my 
opinion, as somebody who spends his life studying this stuff, 
as well as a former participant, I do think that science is 
more excluded from the high-level policy process at EPA today 
than it has been in the past, and I think it is appropriate for 
this Committee to try to nudge things back in the right course.
    Senator Thompson. Thank you very much, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Thompson.
    Do my colleagues have any other questions? If not, I thank 
the witnesses very much. The fact that we had not only the 
current administrator, but her two predecessors here and a 
former general counsel, really lends tremendous weight to this 
recommendation. Maybe I should have said it was more like an 
all-star team than old-timers day.
    Senator Thompson. Still trying to get out of that; aren't 
you?
    Chairman Lieberman. Yes, I am. I do think the hearing 
also--and the arguments that you and others before you have 
made for elevating EPA to cabinet status--makes those arguments 
very powerfully, and in the discussions we have had here, we 
have also shown the temptations or the challenges that we are 
going to have as we steer this bill through the legislative 
process, to stay between the lines and just focus on elevation 
to cabinet status, or we are going to get into difficulties, 
and I hope we can do it. Did you have something more you wanted 
to say?
    Mr. Reilly. Well, I was struck listening to Senator 
Thompson. Once when I testified before the Environment 
Committee, Senator Moynihan was in attendance, and he made a 
memorable point. I think, Senator Thompson, you are now picking 
up the standard of concern for science at EPA, and you no doubt 
know of Senator Moynihan's passion for science. I remember he 
concluded once by saying, ``Sooner a diabolist in the convent 
than a member of the scientific community on the Environment 
and Public Works Committee.''
    Senator Thompson. That is an expression I am sure he got 
from me somewhere along the line. [Laughter.]
    Chairman Lieberman. That is an old Smoky Mountain 
expression; isn't it? [Laughter.]
    Thanks to you all very much. The hearing is adjourned.
    [Whereupon, at 12:03 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T5478.001

[GRAPHIC] [TIFF OMITTED] T5478.002

[GRAPHIC] [TIFF OMITTED] T5478.003

[GRAPHIC] [TIFF OMITTED] T5478.004

[GRAPHIC] [TIFF OMITTED] T5478.005

[GRAPHIC] [TIFF OMITTED] T5478.006

[GRAPHIC] [TIFF OMITTED] T5478.007

[GRAPHIC] [TIFF OMITTED] T5478.008

[GRAPHIC] [TIFF OMITTED] T5478.009

[GRAPHIC] [TIFF OMITTED] T5478.010

[GRAPHIC] [TIFF OMITTED] T5478.011

[GRAPHIC] [TIFF OMITTED] T5478.012

[GRAPHIC] [TIFF OMITTED] T5478.013

[GRAPHIC] [TIFF OMITTED] T5478.014

[GRAPHIC] [TIFF OMITTED] T5478.015

[GRAPHIC] [TIFF OMITTED] T5478.016

[GRAPHIC] [TIFF OMITTED] T5478.017

[GRAPHIC] [TIFF OMITTED] T5478.018

[GRAPHIC] [TIFF OMITTED] T5478.019

[GRAPHIC] [TIFF OMITTED] T5478.020

[GRAPHIC] [TIFF OMITTED] T5478.021

[GRAPHIC] [TIFF OMITTED] T5478.022

[GRAPHIC] [TIFF OMITTED] T5478.023

[GRAPHIC] [TIFF OMITTED] T5478.024

[GRAPHIC] [TIFF OMITTED] T5478.025

[GRAPHIC] [TIFF OMITTED] T5478.026

[GRAPHIC] [TIFF OMITTED] T5478.027

[GRAPHIC] [TIFF OMITTED] T5478.028

[GRAPHIC] [TIFF OMITTED] T5478.029

[GRAPHIC] [TIFF OMITTED] T5478.030

[GRAPHIC] [TIFF OMITTED] T5478.031

[GRAPHIC] [TIFF OMITTED] T5478.032

[GRAPHIC] [TIFF OMITTED] T5478.033

[GRAPHIC] [TIFF OMITTED] T5478.034

[GRAPHIC] [TIFF OMITTED] T5478.035

[GRAPHIC] [TIFF OMITTED] T5478.036

[GRAPHIC] [TIFF OMITTED] T5478.037

[GRAPHIC] [TIFF OMITTED] T5478.038

[GRAPHIC] [TIFF OMITTED] T5478.039

[GRAPHIC] [TIFF OMITTED] T5478.040

[GRAPHIC] [TIFF OMITTED] T5478.041

[GRAPHIC] [TIFF OMITTED] T5478.042

[GRAPHIC] [TIFF OMITTED] T5478.043

[GRAPHIC] [TIFF OMITTED] T5478.044

[GRAPHIC] [TIFF OMITTED] T5478.045

[GRAPHIC] [TIFF OMITTED] T5478.046

[GRAPHIC] [TIFF OMITTED] T5478.047

[GRAPHIC] [TIFF OMITTED] T5478.048

[GRAPHIC] [TIFF OMITTED] T5478.049

[GRAPHIC] [TIFF OMITTED] T5478.050

[GRAPHIC] [TIFF OMITTED] T5478.051

[GRAPHIC] [TIFF OMITTED] T5478.052

[GRAPHIC] [TIFF OMITTED] T5478.053

[GRAPHIC] [TIFF OMITTED] T5478.054

[GRAPHIC] [TIFF OMITTED] T5478.055

[GRAPHIC] [TIFF OMITTED] T5478.056

                                   - 

</pre></body></html>
